GENERAL SERVICES ADMINISTRATION
 OFFICE OF INSPECTOR GENERAL
1B




         REVIEW OF THE FEDERAL ACQUISITION SERVICE’S
                   CLIENT SUPPORT CENTER
                 GREATER SOUTHWEST REGION
              REPORT NUMBER A090139/Q/7/P10006
                         June 7, 2010
                             U.S. General Services Administration
                             Office of Inspector General



Date:      June 7, 2010

Reply to
Attn of:   Regional Inspector General for Auditing
           Greater Southwest Region (JA-7)

Subject:   Review of the Federal Acquisition Service’s
           Client Support Center
           Greater Southwest Region
           Report Number A090139/Q/7/P10006

To:        George R. Prochaska
           Regional Commissioner
           Federal Acquisition Service (7Q)



           Background

           This report presents the results of the Office of Inspector General’s audit of the Federal
           Acquisition Service (FAS) Greater Southwest Region Client Support Center (Greater
           Southwest CSC). As directed in the National Defense Authorization Act for Fiscal Year
           2008, Public Law 110-181, the Inspectors General of the United States Department of
           Defense (DoD) and General Services Administration (GSA) are to report whether GSA
           is complying with laws and regulations applicable to DoD procurements.

           Objective, Scope, and Methodology

           Our objective was to assess whether the policies, procedures, and internal controls of
           the Greater Southwest CSC are administered in a manner compliant with the Federal
           Acquisition Regulation (FAR) and DoD procurement requirements.

           To accomplish our objective, we analyzed two stratified random samples of
           procurement actions for services greater than $100,000 executed between June 1,
           2008 and March 31, 2009; and April 1, 2009 and September 30, 2009, respectively. For
           those same time periods, we also analyzed two judgmental samples of modifications
           placed against existing procurement actions. For the Greater Southwest CSC, our
           samples included 16 new awards valued at $22.9 million and 4 modifications to existing
           orders valued at $17.4 million.


                                        819 Taylor Street, Fort Worth TX 76102
Report Number A090139/Q/7/P10006



We conducted the audit from July 2009 through March 2010 in accordance with
generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Results of Audit

Overall, we found the Greater Southwest CSC compliant with the FAR and DoD
procurement requirements 1 .     We noted that the Greater Southwest CSC has
implemented national controls to improve its overall contracting practices. However, we
identified minor deficiencies that present an opportunity for improvement in the task
order award and administration processes, as well as in file documentation.

Minor Deficiencies – Task Order Award and Administration

During our review, we identified isolated instances of improper task order award and
administration practices, including:

    •   One instance of an improper execution of an option year modification. A task
        order awarded by the U.S. Department of Veterans Affairs was transferred to the
        Greater Southwest CSC. The transferred contract file was missing several
        documents, including a best value determination. Although there was not any
        evidence in the contract file that a best value determination was made on the
        original task order, the Greater Southwest CSC exercised the third option year
        with increased labor costs. In accordance with FAR 17.207, options cannot be
        exercised unless pricing is evaluated as part of the ordering office's best value
        determination. In addition, Greater Southwest CSC personnel could not provide
        support for the increase in labor costs for this option year. Therefore, there is no
        assurance that exercising the option was in the Government's best interest.
        Even though the Greater Southwest CSC did not award the task order, the
        Greater Southwest CSC has a responsibility to ensure that any procurement
        actions after the transfer of a task order are proper.

    •   One instance of inadequate support for price reasonableness. A modification to
        an existing task order added a labor category not included in the original task
        order. At the time of the modification, the level of effort for this task order was
        not re-evaluated; therefore, the price for the additional labor category was not
        determined to be fair and reasonable. Per FAR 8.405-2(d), the ordering activity
        is responsible for considering the level of effort and the mix of labor proposed to
        perform a specific task, and for determining that the total price is reasonable.

1
  For the purposes of this audit report, we will be reporting on the issues that have been determined to be
within the responsibility of FAS. The DoD Office of Inspector General will be reporting on those issues
that are attributable to the DoD under separate cover.


                                                     2
Report Number A090139/Q/7/P10006

       Although price reasonableness was determined at the time of award, the Greater
       Southwest CSC needs to ensure that any labor categories added by modification
       are also found to be fair and reasonable.

   •   One instance of not evaluating proposals in accordance with the evaluation
       factors stated in the Statement of Work (SOW). According to FAR 8.405-2(d),
       the ordering activity shall evaluate all proposals using the evaluation criteria
       provided to the contractors. In order to ensure that all contractors’ bid proposals
       are fairly evaluated based upon previously stated criteria, the Greater Southwest
       CSC should use the evaluation factors outlined in the solicitation.

   •   Four instances in which Quality Assurance Surveillance Plans (QASPs) were not
       prepared and one instance in which a QASP was delivered 8 months after the
       task order award date. In accordance with FAR 46.401, a QASP should be
       prepared in conjunction with the SOW and incorporated into the task order file to
       ensure the Government receives the services for which it has paid. To ensure
       proper surveillance of task order performance, the Greater Southwest CSC
       needs to be more diligent in ensuring that QASPs are completed timely for all
       task orders.

   •   Two instances in which invoices were not in line with the proposal. In one
       instance, a 0.5 percent discount negotiated at the time of award was not reflected
       on the invoices reviewed. In another instance, invoices included billings for labor
       categories not proposed on either the original task order or the modification. The
       Greater Southwest CSC should thoroughly review and approve invoices prior to
       payment to ensure that pricing is in accordance with the proposal, and that the
       documentation supports the costs incurred in conjunction with the specific tasks
       and terms and conditions of the contract.

   •   One instance in which the required steps for accepting funds were not taken.
       The type of requirement (severable services) was not listed on the funding
       document and Part B of the Interagency Agreement was not in the contract file.
       In accordance with GSA Acquisition Letter V-08-04, when accepting funds under
       an Interagency Agreement, the type of requirement is required. Interagency
       Agreements outline the general and specific terms and conditions to govern the
       relationship between the servicing and requesting agencies, and procurement
       policy dictates what elements need to be included. To ensure quality-assisted
       acquisitions, the Greater Southwest CSC should ensure that all task orders have
       an Interagency Agreement and that those agreements include all required
       elements.

Minor Deficiencies – File Documentation

During our review, we also noted isolated instances of inadequate file documentation,
including:


                                            3
Report Number A090139/Q/7/P10006

              REVIEW OF FEDERAL ACQUISITION SERVICE’S
                      CLIENT SUPPORT CENTER
                    GREATER SOUTHWEST REGION

APPENDIX A
Management Comments




                                   A-1
Report Number A090139/Q/7/P10006

              REVIEW OF FEDERAL ACQUISITION SERVICE’S
                      CLIENT SUPPORT CENTER
                    GREATER SOUTHWEST REGION

APPENDIX A
Management Comments




                                   A-2
Report Number A090139/Q/7/P10006

              REVIEW OF FEDERAL ACQUISITION SERVICE’S
                      CLIENT SUPPORT CENTER
                    GREATER SOUTHWEST REGION

APPENDIX A
Management Comments




                                   A-3
Report Number A090139/Q/7/P10006

                        REVIEW OF FEDERAL ACQUISITION SERVICE’S
                                CLIENT SUPPORT CENTER
                              GREATER SOUTHWEST REGION

APPENDIX B
Report Distribution

Regional Commissioner, Greater Southwest Region (7Q) .............................................. 1

Acting Commissioner, Federal Acquisition Service (Q) ................................................... 1

Inspector General, Office of Inspector General (J) .......................................................... 4

Assistant Inspector General for Auditing (JA) .................................................................. 2

Director, Audit Planning, Policy, and Operations (JAO) .................................................. 1

Deputy Assistant Inspector General for Acquisition Audits (JA-A) .................................. 1

Assistant Inspector General for Investigations (JI) .......................................................... 1

Special Agent in Charge (JI-7) ........................................................................................ 1

Branch Chief, Internal Control and Audit Division (BEI) .................................................. 1




                                                          B-1
